             Audit Report




Hearing Office Case Rotation Among
     Administrative Law Judges




       A-12-12-11274 | March 2013
MEMORANDUM


Date:      March 14, 2013                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)

           The attached final report presents the results of our audit. Our objective was to determine
           whether hearing cases were properly rotated among administrative law judges. More
           specifically, we focused on the frequency of a single claimant representative appearing before an
           administrative law judge.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Hearing Office Case Rotation Among Administrative Law
Judges
A-12-12-11274
March 2013                                                                  Office of Audit Report Summary

Objective                                 Our Findings

To determine whether hearing cases        Our review of the Fiscal Year (FY) 2011 and 2012 data found that
were properly rotated among               four hearing offices had rotation issues throughout the period that
administrative law judges (ALJ).          were primarily related to their remote sites. From our interviews
More specifically, we focused on the      with hearing office managers and ALJs, we learned that the rotation
frequency of a single claimant            issues existed for a number of reasons, including (1) ALJs were
representative appearing before an        permitted to choose which remote sites to visit, (2) ALJs did not
ALJ.                                      want to travel to remote sites, (3) parent hearing offices and remote
                                          sites lacked sufficient video hearing capacity, (4) claimant
Background                                representatives declined video hearings even when equipment was
                                          available, and (5) ALJs were permanently stationed at remote sites
The Office of Disability Adjudication     or satellite offices.
and Review (ODAR) has established
policies and procedures that govern the   We also determined that the number of hearing offices with rotation
rotation of claims at its hearing         issues declined over the 18-month period. Five hearing offices with
locations. In general, a Hearing Office   rotation issues in FY 2011 did not appear in our FY 2012 data,
Chief ALJ “. . . assigns cases to ALJs    though three additional hearing offices showed rotation issues in
from the master docket on a rotational    FY 2012. In our discussions with managers at the five hearing
basis, with the earliest (i.e., oldest)   offices that resolved their rotation issues, we learned the reasons for
[requests for hearing] receiving          the improvement included (1) expanded video capacity,
priority, unless there is a special       (2) increased management oversight, (3) changes in ALJs, and
situation which requires a change in      (4) reassignment of a remote site. Some of these practices could
the order in which a case is assigned.”   assist the hearing offices still experiencing rotation problems.

In June 2011, ODAR’s Chief Judge          Our Recommendations
issued a memorandum that established
additional controls over case             To improve the rotation of hearing cases, we recommend the
assignment to further enhance hearing     Agency:
office management’s ability to ensure
proper case rotation. In the              1. Continue monitoring the seven hearing offices with rotation
memorandum, the Chief Judge noted,           issues in the first 6 months of FY 2012 to ensure the proper
“Because cases are assigned on a             resolution of rotation issues.
rotational basis, one ALJ should not be
assigned a disproportionate share of      2. Remind hearing office managers that ALJ coverage of remote
the cases from any specific                  sites should be consistent with rotation policy and involve all
representative.”                             ALJs to the extent possible.

                                          The Agency agreed with the recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Rotation Issues in FYs 2011 and 2012 ......................................................................................3
     Rotation Issues During Both FYs ..............................................................................................4
           Billings Hearing Office ........................................................................................................5
           Fort Worth Hearing Office...................................................................................................6
           Little Rock Hearing Office ..................................................................................................8
           Denver Hearing Office .........................................................................................................9
     Rotation Issues Resolved in FY 2012 ......................................................................................10
           Enhanced Video Capacity ..................................................................................................10
           Increased Management Oversight......................................................................................11
           Changes in ALJ Staffing ....................................................................................................11
           Reassigned Remote Site.....................................................................................................11
Conclusions ....................................................................................................................................11
Recommendations ..........................................................................................................................12
Agency Comments .........................................................................................................................12
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Hearing office selection criteria .......................................................................... B-1
Appendix C – New Rotation Issues in Fiscal Year 2012 ........................................................... C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)
ABBREVIATIONS
ALJ                 Administrative Law Judge

COV                 Claimant-Only Video (site)

CPMS                Case Processing and Management System

CRR                 Congressional Response Report

FY                  Fiscal Year

HALLEX              Hearings, Appeals and Litigation Law Manual

HOCALJ              Hearing Office Chief Administrative Law Judge

ODAR                Office of Disability Adjudication and Review

OIG                 Office of the Inspector General

RCALJ               Regional Chief Administrative Law Judge

SO                  Satellite Office

SSA                 Social Security Administration




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)
OBJECTIVE
Our objective was to determine whether hearing cases were properly rotated among
administrative law judges (ALJ). More specifically, we focused on the frequency of a single
claimant representative appearing before an ALJ.

BACKGROUND
Approximately 1,500 ALJs in more than 165 hearings offices and 5 National Hearing Centers
conduct Social Security Administration (SSA) benefit program hearings from these locations as
well as remote sites. 1 The Office of Disability Adjudication and Review (ODAR) established
policies and procedures that govern the rotation of claims at its hearing locations. In general, a
Hearing Office Chief ALJ (HOCALJ) “. . . assigns cases to ALJs from the master docket on a
rotational basis, with the earliest (i.e., oldest) [requests for hearing] receiving priority, unless
there is a special situation which requires a change in the order in which a case is assigned.” 2 In
testimony prepared for a congressional hearing in June 2012, SSA’s Commissioner stated that
assigning hearing cases to ALJs in rotation “. . . promotes fairness and reduces manipulation of
judicial assignment.” 3

In June 2011, ODAR’s Chief Judge issued a memorandum that established additional controls
over case assignment to further enhance hearing office management’s ability to ensure proper
case rotation. 4 In the memorandum, the Chief Judge noted, “Because cases are assigned on a
rotational basis, one ALJ should not be assigned a disproportionate share of the cases from any
specific representative.” In Fiscal Year (FY) 2011, ODAR also began developing an early
monitoring system to measure ALJ performance based on a combination of risk factors,
including the frequency of an ALJ’s hearings with the same claimant representative. 5




1
  Many hearing offices have remote sites generally located 75 miles or farther from a parent hearing office. ALJs
either travel to the site to conduct in-person hearings or conduct hearings using video technology.
2
    Hearings, Appeals Litigation Law Manual (HALLEX) I-2-1-55A – Assignment of Service Area Cases to ALJs.
3
  Fourth in a Hearing Series on Securing the Future of the Social Security Disability Insurance Program: Hearing
before the H. Committee on Ways and Means, Subcommittee on Social Security, 112th Congress (June 27, 2012)
(statement of Michael J. Astrue, Commissioner, Social Security Administration).
4
    Case Assignment and Other Important Reminders, memorandum from Chief ALJ Debra Bice, June 3, 2011.
5
 SSA Office of the Inspector General (OIG), Identifying and Monitoring Risk Factors at Hearing Offices
(A-12-12-11289), January 2013.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                                        1
Prior SSA OIG reviews identified ALJ rotation issues at hearing offices. Our February 2012
congressional report 6 identified an ALJ who had a disproportionate number of cases with a single
claimant representative, indicating a potential problem with case rotation in that office. While
this ALJ conducted about 59 percent of his workload with one claimant representative, we
determined that under normal rotation procedures, only about 11 percent of this ALJ’s workload
should have been with this claimant representative. We identified similar problems in a
September 2007 audit 7 that found over a 6-year period, the Fort Lauderdale HOCALJ did not
follow ODAR’s policy of assigning claims to ALJs on a rotational basis. Consequently,
four claimant representatives had over 50 percent of their caseloads with the HOCALJ, far
beyond the anticipated rate under normal case rotation.

To meet our objective, we analyzed closed cases in ODAR’s Case Processing and Management
System (CPMS) for FY 2011 and the first 6 months of FY 2012 to identify instances where the
claimant representative had at least 50 case decisions during the FY, and at least 50 percent of
those decisions was made by the same ALJ. We contacted hearing offices that had potential
rotation issues that met our criteria. We also met with ODAR headquarters and regional
managers to learn more about their case rotation policy. 8

RESULTS OF REVIEW
Our review of the FY 2011 and 2012 data found that four hearing offices had rotation issues
throughout the period that were primarily related to their remote sites. From our interviews with
hearing office managers and ALJs, we learned that the rotation issues existed for a number of
reasons, including (1) ALJs were permitted to choose which remote sites to visit, (2) ALJs did
not want to travel to remote sites, (3) parent hearing offices and remote sites lacked sufficient
video hearing capacity, (4) claimant representatives declined video hearings even when
equipment was available, and (5) ALJs were permanently stationed at remote sites or satellite
offices (SO).

We also determined that the number of hearing offices with rotation issues declined over the
18-month period. Five hearing offices with rotation issues in FY 2011 did not appear in our
FY 2012 data, though three additional hearing offices showed rotation issues in FY 2012. In our
discussions with managers at the five hearing offices that resolved their rotation issues, we
learned the primary reasons for the improvement related to (1) expanded video capacity,
(2) increased management oversight, (3) changes in ALJs, and (4) reassignment of a remote site.
It is possible that some of these practices could assist the hearing offices still experiencing
rotation problems in FY 2012.


6
 SSA OIG, Congressional Response Report (CRR): Oversight of Administrative Law Judge Workload Trends
(A-12-11-01138), February 2012.
7
    SSA OIG, Workload Activity at Five Hearing Offices in Region IV (A-12-07-27091), September 2007.
8
    See Appendix A for more information about our scope and methodology.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                           2
Rotation Issues in FYs 2011 and 2012
In our review of CPMS data covering FY 2011 and the first 6 months of FY 2012, we identified
rotation issues at 12 hearing offices, involving 17 ALJs and 29 claimant representatives, 9 that
met our criteria 10 (see Table 1). Two of the ALJs served as the HOCALJ in their respective
office. We determined that four hearing offices had rotation issues throughout the period,
whereas five hearing offices appeared to resolve their issues in FY 2011, and three additional
offices met our criteria in the first 6 months of FY 2012.

                          Table 1: Rotation Issues Identified Using OIG Criteria1
                                 (FY 2011 and First 6 Months of FY 2012)
                                                                                               Number of
                Hearing                                                     Number of
                                      State               Region                               Claimant
                 Office                                                       ALJs
                                                                                             Representatives
        Brooklyn2                New York             New York                    1                   1
        Billings4                Montana              Denver                      2                   5
        Birmingham2              Alabama              Atlanta                     1                   2
        Denver4                  Colorado             Denver                      2                   2
        Flint2                   Michigan             Chicago                     1                   1
        Fort Worth4              Texas                Dallas                      2                   9
        Little Rock4             Arkansas             Dallas                      2                   2
        Long Beach2              California           San Francisco               1                   1
        Madison3                 Wisconsin            Chicago                     1                   1
        Paducah2                 Kentucky             Atlanta                     2                   3
        Reno3                    Nevada               San Francisco               1                   1
        Salt Lake City3          Utah                 Denver                      1                   1
        Totals                                                                   17                  29
       Notes:
       1.   OIG Rotation Criteria – Claimant representative had at least 50 case decisions during the FY, and
            50 percent of those decisions were decided by the same ALJ.
       2.   Identified rotation issues in FY 2011 only.
       3.   Identified rotation issues in FY 2012 only.
       4.   Identified rotation issues in FYs 2011 and 2012.




9
    Some ALJs had rotation issues with more than one claimant representative.
10
  We identified instances where the claimant representatives had at least 50 case decisions during the FY, and at
least 50 percent of those decisions was decided by the same ALJ.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                                        3
Rotation Issues During Both FYs
The four hearing offices with rotation issues throughout the entire 18-month period were
Billings, Montana; Fort Worth, Texas; Little Rock, Arkansas; and Denver, Colorado. 11 We
interviewed managers, ALJs, and schedulers at each hearing office to learn about the rotation
issues in each office. We provided a summary of their responses in Table 2.

             Table 2: Stated Reasons for ALJ Rotation Issues at Four Hearing Offices
                    (Closed Cases for FY 2011 and First 6 Months of FY 2012)
                                                                                      Fort        Little
                      Reasons for Rotation Issues                        Billings                           Denver
                                                                                      Worth       Rock
      ALJs Allowed to Choose Remote Sites                                                         
      ALJs Prefer Not to Travel                                                         
      ALJs Permanently Assigned to Remote Sites/SOs1                                                          
      Shortage of Video Capacity at Hearing Offices                                                 
      Claimant Representatives Declining Video Hearings                      
      Note 1: An SO is a subordinate permanent duty station aligned with a specific hearing office and
      administratively managed as a branch of the office. An SO normally has a limited staff, usually consisting of
      one or two ALJs and a few support staff.

We also found that, in all but one case, the ALJs with rotation issues had a higher allowance rate
with the claimant representatives that met our criteria when compared to each ALJ’s overall
allowance rate. 12 While allowance rates may vary for a number of reasons, improved rotation
would reduce any concerns about fairness. The most prominent reason the rotation policy was
not being followed related to ALJs choosing their remote site, followed by ALJs deciding not to
travel 13 or management allowing only one ALJ to cover a particular remote location. 14 Below,
we provide more details on the situation in each of the four hearing offices. 15




11
     See Appendix B for more detail on these cases.
12
     Id.
13
  According to the ALJ position description, ALJs are required to travel to remote sites, the exception being
reasonable accommodations approved by ODAR management for medical conditions restricting such travel.
14
  ODAR executives explained that some ALJs lived at remote locations and conducted most of the hearings at those
remote sites. Even though this practice violated the case rotation policy, it was justified because of travel cost
savings, since the ALJs in the parent hearing office did not travel to those remote locations. However, ODAR was
taking steps to stop this practice by requiring that all ALJs report to the parent hearing office or one of its seven SOs.
15
  We also reviewed the three hearing offices that appeared to have rotation issues in FY 2012—Salt Lake City,
Utah, Hearing Office; Reno, Nevada, Hearing Office; and Madison, Wisconsin, SO. Many of the rotation issues
were similar to those cited by the four hearing offices who met our criteria during the entire 18-month period. See
Appendix C for more information about the rotation issues at these three hearing offices.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                                            4
Billings Hearing Office
At the time of our review, the Billings Hearing Office employed four ALJs who conducted
hearings at the parent hearing office as well as five remotes sites. The remote sites were as far as
492 miles from Billings. Another two ALJs worked at the SO in Boise, Idaho. We found
rotation issues involving two ALJs and three claimant representatives related to hearings at the
Billings Hearing Office as well as the remote sites in Helena and Missoula (see Figure 1).

                         Figure 1: Helena and Missoula, Montana, Remote Sites




We identified the following rotation issues in the first 6 months of FY 2012. 16

•      One ALJ decided about 67 percent of claimant representatives’ cases at the Billings Hearing
       Office.

•      One ALJ decided about 58 percent of a claimant representative’s cases at the Helena remote
       site.

•      One ALJ decided about 66 percent of a claimant representative’s cases at the Missoula
       remote site.

Hearing office managers explained that the high amount of ALJ travel to remote sites in other
parts of Montana left fewer ALJs in the Billings area to handle the local cases, most likely
causing the rotation problem at the parent hearing office. They also stated that ALJs were
allowed to choose which remote site they wanted to visit. Consequently, ALJs visited the remote


16
     See Appendix B for more detail on these cases.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                         5
sites based on personal preference and did not rotate from site to site, causing rotation problems
at the remote sites.

Hearing office managers explained that some claimant representatives had the majority of their
business in the same area served by the remote sites. Since only one or two ALJs were traveling
to a preferred remote site, a high percentage of claimant representative cases would go to a single
ALJ. While both remote sites had video equipment, which would have allowed more ALJs to
hold hearings at these locations, a Billings Hearing Office manager said that some claimant
representatives may have declined video hearings because they knew which ALJ went to each
remote site, as well as the allowance rates for every ALJ in the office. In FY 2011, only
3 percent of the hearings in the Billings Hearing Office was conducted using video equipment,
whereas the national average for video hearings was about 20 percent. In a June 2012 report, we
noted “…the Agency needs to focus its efforts on ensuring the public and its employees consider
the advantages of video hearings.” 17 In addition to video hearings allowing better rotation of
hearing cases, the use of this equipment would also have provided the Agency with savings
related to ALJ travel time and costs. 18

Fort Worth Hearing Office
At the time of our review, the Fort Worth Hearing Office employed nine ALJs responsible for
hearings at the parent hearing office and six remote sites. We found case rotation issues among
two ALJs and four claimant representatives at remote sites in Lubbock and Midland, Texas
(see Figure 2).




17
     SSA OIG, CRR: Current and Expanded Use of Video Hearings (A-05-12-21287), June 2012, p. 15.
18
     Id., p. 3.


Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                         6
                          Figure 2: Lubbock and Midland, Texas, Remote Sites




We identified the following rotation issues in the first 6 months of FY 2012. 19

•      One ALJ decided about 64 percent of a claimant representative’s cases and about 54 percent
       of another representative’s cases at the Lubbock remote site.

•      One ALJ decided 100 percent of a claimant representative’s cases and about 69 percent of
       another representative’s cases at the Midland remote site.

In our discussions with hearing office management, we learned that ALJs were allowed to
choose which remote sites they visited. Management explained that one ALJ often visited the
Lubbock, Texas, remote site (319 miles from Fort Worth) because he preferred in-person
hearings and was willing to travel compared to the other ALJs in the office who did not want to
travel so far. In addition, one ALJ was permanently stationed by management at the Midland,
Texas, remote site during our audit period.




19
     See Appendix B for more detail on these cases.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                        7
Hearing office managers stated that although having one ALJ decide most of the cases at the
Lubbock and Midland remote sites may have bypassed rotation policy, it was done for budgetary
reasons since it led to savings in ALJ time and travel costs. We also learned that both the
Lubbock and Midland remote sites had video equipment, which would have allowed other ALJs
to hold hearings with claimants in these remote areas. 20

ODAR management designated the Midland, Texas, remote site as an SO after we conducted our
audit and the ALJ’s duty station was changed effective December 30, 2012. According to
ODAR, support staff was not assigned to the Midland SO as part of the change. ODAR
management stated that, as resources and scheduling coordination allows, the ALJ stationed in
Midland will be conducting videos with claimants in other parts of Texas, while ALJs from the
Fort Worth Hearing Office will conduct video hearings with claimant representatives served by
the Midland SO. In this way, greater case rotation will be possible.

Little Rock Hearing Office
At the time of our review, the Little Rock Hearing office employed 12 ALJs responsible for
conducting hearings at the parent hearing office as well as 5 remote sites. We found rotation
issues with two ALJs and two claimant representatives at the Batesville and El Dorado,
Arkansas, remote sites (see Figure 3).

                      Figure 3: Batesville and El Dorado, Arkansas, Remote Sites




20
     In FY 2011, about 20 percent of the Fort Worth Hearing Office’s hearings was conducted via video equipment.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                                       8
We identified the following rotation issues in the first 6 months of FY 2011. 21

•      One ALJ decided 86 percent of a claimant representative’s cases at the Batesville remote site.

•      One ALJ decided about 51 percent of a claimant representative’s cases at the El Dorado
       remote site.

During our interviews, we learned that hearing office managers allowed the ALJs to choose
between holding video hearings or traveling to remote sites. ALJs were also allowed to choose
two of the five remote sites to visit and alternate between those sites every 6 months. Since
claimants near the remote sites were served by local claimant representatives, the ALJs traveling
to these remote sites also experienced limited case rotation. Hearing office managers stated that
they changed the remote site policy in FY 2012 from 6-month details at two remote sites to
4-month details among all the remote sites.

Hearing office managers explained that they wanted to conduct more video hearings at the
remote sites, but the Little Rock Hearing Office had only 4 hearing rooms for the 12 ALJs in the
office for both in-person and video hearings. The managers stated ODAR were planning to add
two more hearing rooms and additional video capacity. Even with this video capacity issue,
about 20 percent of Little Rock’s FY 2011 hearings was conducted as video hearings, a rate that
was equal to the national average.

Denver Hearing Office
At the time of our review, the Denver Hearing Office employed nine ALJs responsible for
hearings at the hearing office as well as two SOs, two claimant-only video (COV) sites, and one
remote site. During the first 6 months of FY 2012, we found that one ALJ decided about
79 percent of a claimant representative’s cases at the Casper, Wyoming, SO. 22

In our discussions with hearing office managers, we learned that one ALJ was permanently
stationed at the Casper, Wyoming, SO and was assigned the majority of cases at the remote sites
in Wyoming. According to ODAR’s June 2012 listing of remote sites, the Casper SO served two
remote sites—a COV site in Cody, Wyoming, and a shared COV site with the Sheridan,
Wyoming, Field Office. While the situation led to rotation issues, it appeared that the remote
sites with video capabilities would allow other ALJs in the Denver Hearing Office to assist with
the Wyoming workload.




21
     See Appendix B for more detail on these cases.
22
     Id.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                        9
Rotation Issues Resolved in FY 2012
We interviewed hearing office managers and ALJs at the five hearing offices that had rotation
issues in FY 2011, but not in FY 2012, to learn how their rotation issues were resolved. The
reasons cited included (1) greater video hearing capacity, (2) increased management oversight of
case rotation, (3) changes in ALJ staffing, and (4) remote site realignment (see Table 3).

         Table 3: Resolution of Rotation Issues at Five Hearing Offices in FY 2012
    Actions Taken to Resolve Rotation                                                   Long
                                              Birmingham Paducah Flint Brooklyn
                 Issues                                                                 Beach
 Enhanced Video Capacity                                                                
 Increased Management Oversight of
                                                                         
 Case Rotation
 Changes in ALJ Staffing                                                      
 Reassigned Remote Site                                                   

Enhanced Video Capacity
Managers at the Birmingham, Long Beach, and Paducah Hearing Offices said that adding more
video hearing capacity had helped reduce their rotation issues. According to Birmingham
Hearing Office managers, during FY 2011 one ALJ traveled to Tuscaloosa, Alabama, and
decided most of the cases at the remote site where two claimant representatives represented most
of the claimants. By adding video capacity at the Birmingham Hearing Office, management was
able to rotate the Tuscaloosa cases between all of the ALJs in the Office.

In the case of the Paducah Hearing Office, the hearing office shared a remote site at a Federal
courthouse in Owensboro, Kentucky. This remote site was about 130 miles from the Paducah
Hearing Office. Because of scheduling conflicts, staff could only schedule hearings 1 day a
week, rather than the minimum 3-day travel docket required. In addition, hearing office mangers
decided to assign all of the Owensboro cases to one ALJ who lived near the site. Hearing office
managers stated they bypassed rotation since it saved time and money for that ALJ to hold most
of the hearings at that site. In FY 2011, the ALJ decided about 83 percent of one claimant
representative’s cases and about 63 percent of a second claimant representative. In January
2012, SSA opened a new COV site at its Owensboro Field Office and the Paducah Hearing
Office began holding video hearings from the site, thereby increasing the ALJ coverage of the
Owensboro area.

In the case of the Long Beach Hearing Office, hearing office managers said that adding two
video hearing rooms to the remote site in Palmdale, California, allowed better case rotation. In
FY 2011, not all of the ALJs were willing to travel 86 miles to the Palmdale remote site, but
cases were rotated more in FY 2012 because a greater volume of video hearings were being held
at the site.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                  10
Increased Management Oversight
Managers at the Birmingham and Flint Hearing Offices stated they eliminated their rotation
issues when they began emphasizing proper case rotation to their staff and monitoring case
rotation using CPMS management information reports. For example, one hearing office
manager said she used the CPMS’ Disability Adjudication Reporting Tools, which allow
managers to view specific ALJ case assignments by claimant representative. Hearing office
managers also stated their regional offices and ODAR headquarters closely monitored case
rotation in their offices and would notify managers if rotation issues arose.

Changes in ALJ Staffing
In FY 2011, an ALJ at the Brooklyn Hearing Office decided 50 percent of one claimant
representative’s cases. Our review of CPMS data found that the Brooklyn Hearing Office had
11 ALJs who heard cases with 381 claimant representatives in FY 2011. Under normal rotation,
the ALJ would have decided about 9 percent of the representative’s cases. We learned this ALJ
left the Agency, and the rotation problem did not appear again in FY 2012 CPMS data. The
hearing office managers were new and could not explain the rotation problems in FY 2011.

In another case, an ALJ at the Paducah Hearing Office decided about 57 percent of the cases for
one claimant representative in FY 2011. The HOCALJ explained that she recused herself from
hearing this claimant representative’s cases and therefore more of these cases were available to
other ALJs in the office. The Paducah Hearing Office had about five ALJs during our audit
period, though the hearing office manager explained that the office had difficulty retaining ALJs.
She explained that they filled a number of ALJ positions in FY 2012, thereby decreasing the
frequency of a single claimant representative before a single ALJ.

Reassigned Remote Site
In FY 2011, the Flint Hearing Office serviced the remote site in Alpena, Michigan. According to
hearing office managers, one ALJ heard the majority of cases in Alpena because the other ALJs
did not want to travel 178 miles to the site. In the spring of 2011, ODAR opened a new hearing
office in Mt. Pleasant, Michigan, and realigned the Alpena remote site to the new office. The
Flint Hearing Office held hearings in Alpena until June 2011, after which the rotation of cases
improved.

CONCLUSIONS
SSA has reduced the number of ongoing rotation issues among its ALJs and claimant
representatives. However, we found rotation issues at seven hearing offices in the first 6 months
of FY 2012, including four hearing offices that also had rotation issues in FY 2011. Many of the
issues at these hearing offices related to ALJ preferences on travel locations, ALJ willingness to
travel, and the inability to hold video hearings. In other cases, the organizational structure, such
as permanent assignments to remote locations, came with built-in rotation issues. In terms of
potential solutions, we found that expanded use of video technology as well as greater
management oversight solved rotation issues at a number of locations. To the extent claimant

Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                      11
representatives are reluctant to use video equipment, we support continued outreach efforts at
those sites to encourage greater use of video technology among the claimant representatives.

RECOMMENDATIONS
To improve the rotation of hearing cases, we recommend the Agency:

1. Continue monitoring the seven hearing offices with rotation issues in the first 6 months of
   FY 2012 to ensure the proper resolution of rotation issues.

2. Remind hearing office managers that ALJ coverage of remote sites should be consistent with
   rotation policy and involve all ALJs to the extent possible.

AGENCY COMMENTS
The Agency agreed with our recommendations (see Appendix D).




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                     12
                                      APPENDICES




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed prior Social Security Administration (SSA) Office of the Inspector General
    reports.

•   Reviewed SSA’s Program Operations Manual System; Hearings, Appeals and Litigation Law
    Manual; and Office of Disability Adjudication and Review’s (ODAR) Chief Administrative
    Law Judge (ALJ) memorandum on case assignment and rotation.

•   Analyzed Case Processing and Management System (CPMS) closed cases for Fiscal Years
    (FY) 2011 and the first 6 months of FY 2012 to identify cases where the claimant
    representative had at least 50 decisions during the FY, and at least 50 percent of those
    decisions was made by the same ALJ.

•   Interviewed managers and staff at ODAR’s headquarters to discuss rotation policies and
    procedures.

•   Interviewed ODAR regional managers in the Dallas, Denver, and San Francisco Regions.

•   Interviewed hearing office managers at the 12 hearing offices that met our rotation criteria
    (see Appendix B for more information about our hearing office selection criteria). In the
    case of three hearing offices–Billings, Fort Worth, and Little Rock–we also interviewed ALJs
    and staff.

We found that the CPMS FYs 2011 and 2012 data were sufficiently reliable to meet our
objective. The entity audited was the Office of the Deputy Commissioner for Disability
Adjudication and Review. We conducted this performance audit from March through
October 2012 in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                   A-1
Appendix B – HEARING OFFICE SELECTION CRITERIA
We analyzed the Case Processing and Management System (CPMS) closed claims database for Fiscal Years (FY) 2011 and the first
6 months of FY 2012 to identify cases where the claimant representative had at least 50 cases, and at least 50 percent of those cases
was decided by the same administrative law judge (ALJ). 1

While performing our data analysis, we used the following methodology.

1. Summarized the FY 2011 and 2012 closed claims data and further summarized by ALJ and claimant representative.

2. Extracted ALJs with at least 200 dispositions.

3. Extracted claimant representatives with at least 50 total dispositions during the FY.

4. Calculated the claimant representative-to-ALJ ratio 2 for all ALJs and claimant representatives.

5. Selected the conditions where the claimant representative-to-ALJ ratio was 50 percent or higher for the FY.

6. Sorted on claimant representative-to-ALJ ratio from highest to lowest.

Below, we provide additional information on the ALJs in four hearing offices that had rotation issues that met our criteria during both
FY 2011 and the first 6 months of FY 2012.




1
 We did not include hearings offices designed for one or two ALJs. ODAR identified four offices meeting this criteria; Anchorage, Alaska; Honolulu, Hawaii;
Mayaguez, Puerto Rico; and Ponce, Puerto Rico.
2
    This ratio is determined by dividing the claimant representative’s cases decided by an ALJ by the claimant representative’s total cases.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                                                                             B-1
Two ALJs in the Billings, Montana, Hearing Office decided over 50 percent of the cases for four claimant representatives. A
comparison of their ALJ allowance rates with the claimant representatives and their overall allowance rates in FYs 2011 and the first
6 months of FY 2012 are illustrated below (see Table B-1). In all of the cases but one, the ALJs had a higher allowance rate with the
identified claimant representative when compared to the ALJ’s overall allowance rate.

                 Table B-1: Billings Hearing Office Rotation Issues – FY 2011 and the First 6 Months of FY 2012
                                              Number of             Percent of      Percent of ALJ’s   ALJ Allowance
                                               Claimant             Claimant         Decided Cases       Rate with       ALJ Overall
                Claimant
   ALJ                              FY      Representative’s     Representative’s    with Claimant       Claimant       Allowance Rate
              Representative
                                             Cases Decided       Cases Decided by    Representative    Representative      (Percent)
                                                by ALJ                 ALJ                               (Percent)
                Claimant           2012            40                  66                 12                85               69
  ALJ 1
             Representative 1      2011            80                  73                 14                81               71

                Claimant           2012            30                  58                 9                 73               69
  ALJ 1
             Representative 2      2011            81                  88                 14                75               71

                Claimant           2012            46                  67                 16                46               38
  ALJ 2
             Representative 3      2011            na                  na                 na                na               na

                Claimant           2012            na                  na                 na                na               na
  ALJ 2
             Representative 4      2011            59                  53                 10                34               37
na = We did not identify any situations matching our criteria.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                                                         B-2
Two ALJs at the Fort Worth, Texas, Hearing Office decided over 50 percent of the cases for five different claimant representatives
(see Table B-2). ALJ 1 decided 100 percent of claimant representative 1’s cases in the first 6 months of FY 2012, the highest rate
among the ALJs we reviewed. In all of the cases, the ALJs had a higher allowance rate with the identified claimant representative
when compared to the ALJ’s overall allowance rate.

              Table B-2: Fort Worth Hearing Office Rotation Issues – FYs 2011 and the First 6 Months of FY 2012
                                              Number of             Percent of      Percent of ALJ’s   ALJ Allowance
                                               Claimant             Claimant         Decided Cases       Rate with       ALJ Overall
                Claimant
   ALJ                              FY      Representative’s     Representative’s    with Claimant       Claimant       Allowance Rate
              Representative
                                             Cases Decided       Cases Decided by    Representative    Representative      (Percent)
                                                by ALJ                 ALJ                               (Percent)
                Claimant           2012             71                 100                20                73               52
  ALJ 1
             Representative 1      2011            154                  83                23                75               55

                Claimant           2012             62                 69                 18                65               52
  ALJ 1
             Representative 2      2011            109                 87                 16                65               55

                Claimant           2012            60                  64                 15                72               57
  ALJ 2
             Representative 3      2011            92                  58                 11                64               58

                Claimant           2012            34                  54                 9                 68               57
  ALJ 2
             Representative 4      2011            na                  na                 na                na               na

                Claimant           2012            na                  na                 na                na               na
  ALJ 2
             Representative 5      2011            88                  85                 10                84               58
na = We did not identify any situations matching our criteria.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                                                         B-3
Two ALJs in the Little Rock, Arkansas, Hearing Office decided over 50 percent of two claimant representative cases in FYs 2011 and
the first 6 months of FY 2012 (see Table B-3). ALJ 1 decided 70 percent of Claimant Representative 1’s cases in FY 2011, but it
increased to 86 percent in FY 2012. In all of the cases, the ALJs had a higher allowance rate with the identified claimant
representative when compared to the ALJ’s overall allowance rate.

              Table B-3: Little Rock Hearing Office Rotation Issues – FYs 2011 and the First 6 Months of FY 2012
                                              Number of            Percent of      Percent of ALJ’s   ALJ Allowance
                                               Claimant            Claimant         Decided Cases       Rate with       ALJ Overall
                Claimant
   ALJ                              FY      Representative’s    Representative’s    with Claimant       Claimant       Allowance Rate
              Representative
                                             Cases Decided      Cases Decided by    Representative    Representative      (Percent)
                                                by ALJ                ALJ                               (Percent)
                Claimant           2012            43                  86                10                88               78
  ALJ 1
             Representative 1      2011            74                  70                8                 97               84

                Claimant           2012            46                  51                14                76               62
  ALJ 2
             Representative 2      2011           124                  56                13                69               65




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                                                       B-4
Two ALJs in the Denver, Colorado, Hearing Office decided over 50 percent of the cases for two claimant representatives in FY 2011
(see Table B-4). ALJ 1 also had rotation issues with the same claimant representative in the first 6 months of FY 2012. However,
from our interviews with Denver Hearing Office managers, we learned that the ALJ transferred to a different hearing office sometime
in FY 2012. 3 In all of the cases, the ALJs had a higher allowance rate with the identified claimant representative when compared to
the ALJ’s overall allowance rate.

                    Table B-4: Denver Hearing Office Rotation Issues – FYs 2011 and the First 6 Months of FY 2012
                                                    Number of              Percent of          Percent of ALJ’s       ALJ Allowance
                                                     Claimant              Claimant             Decided Cases           Rate with            ALJ Overall
                   Claimant
      ALJ                                 FY      Representative’s      Representative’s        with Claimant           Claimant            Allowance Rate
                 Representative
                                                   Cases Decided        Cases Decided by        Representative        Representative           (Percent)
                                                      by ALJ                  ALJ                                       (Percent)
                   Claimant              2012             83                    79                     42                    49                  41
     ALJ 1
                Representative 1         2011            217                    86                     39                    50                  46

                   Claimant            2012           na                        na                     na                    na                  na
     ALJ 2
                Representative 2       2011           68                        58                     13                    46                  41
    na = We did not identify any situations matching our criteria.




3
    The CPMS data we analyzed showed that ALJ 1 had rotation issues with claimant representative 1 through the first 6 months of FY 2012.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                                                                             B-5
Appendix C – NEW ROTATION ISSUES IN FISCAL YEAR 2012
In our review of the first 6 months of Fiscal Year (FY) 2012 Case Processing and Management
System closed cases, we identified 3 additional hearing offices where the claimant representative
had at least 50 decisions, and at least 50 percent of those decisions was made by the same
administrative law judge (ALJ). We contacted the hearing office managers to discuss the
rotation issues at these hearing offices. The managers cited the following reasons for the rotation
issues: (1) ALJ’s inability to travel, (2) claimant representative declining video hearings, (3) a
new office with only one ALJ, (4) ALJs preference for in-person hearings, and (5) new ALJs
lacking video equipment training.

Salt Lake City Hearing Office
Hearing office managers stated that medical reasons reduced the number of ALJs in the hearing
office who could travel to the St. George remote site, thereby limiting the ability to rotate cases
at that site. In addition, the site had one claimant representative who represented most of the
claimants served by the remote site and preferred in-person hearings. We found that this ALJ
decided about 58 percent of the cases with this one claimant representative.

Reno Hearing Office
One claimant representative had 56 percent of his cases with an ALJ in the parent hearing office.
However, when we spoke with the San Francisco Regional Chief ALJ (RCALJ), we learned that
the Reno Hearing Office opened in September 2011. Initially, only one ALJ was assigned to
Reno, and that ALJ conducted all of the hearings until additional ALJs were hired. The RCALJ
also explained that the Reno area had a small claimant representative community that handled
the cases for the majority of the claimants. The RCALJ expected case rotation would improve
with the additional ALJs in the office.

Madison Hearing Office
According to managers in the Madison, Wisconsin, Hearing Office, the rotation issues related to
a claimant-only video (COV) site in La Crosse, Wisconsin. Some ALJs preferred to conduct
in-person hearings at remote sites or the ALJs were newly hired and not familiar with conducting
hearings using video technology. Consequently, the Hearing Office Chief ALJ (HOCALJ)
conducted most of the video hearings at the La Crosse, Wisconsin, COV site. In one case, the
HOCALJ decided about 56 percent of cases represented by one claimant representative. To
resolve this issue, the HOCALJ said he was providing video hearing training to the newer ALJs
and encouraging expanded ALJ coverage of the COV.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                     C-1
           Appendix D – AGENCY COMMENTS




                                         SOCIAL SECURITY
 MEMORANDUM

Date:      March 5, 2013                                                                  Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Kate Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Hearing Office Case Rotation Among
           Administrative Law Judges” (A-12-12-11274)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.
           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“HEARING OFFICE CASE ROTATION AMONG ADMINISTRATIVE LAW JUDGES”
(A-12-12-11274)

Recommendation 1

Continue monitoring the seven hearing offices with rotation issues in the first 6 months of
FY 2012 to ensure the proper resolution of rotation issues.

Response

We agree.

Recommendation 2

Remind hearing office managers that ALJ coverage of remote sites should be consistent with
rotation policy and involve all ALJs to the extent possible.

Response

We agree.




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)                  D-2
Appendix E – MAJOR CONTRIBUTORS
Walter Bayer, Director, Chicago Audit Division

Nicholas Milanek, Audit Manager, Crystal City Audit Office

Faisal Khan, Auditor-in-Charge




Hearing Office Case Rotation Among Administrative Law Judges (A-12-12-11274)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
